HHS/OIG, Audit - "Review of Head Start Board of Directors, Inc., for the
Period September 1, 2006, Through October 23, 2007," (A-01-07-02505)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Head Start Board of Directors, Inc., for the Period September 1, 2006,
Through October 23, 2007," (A-01-07-02505)
June 2, 2008
Complete
Text of Report is available in PDF format (240 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period September 1, 2006, through October 23, 2007,
Head Start Board of Directors, Inc. (HSBD), a Head Start grantee, did not fully
comply with Federal and State requirements regarding the safety of children in
its care and the management of and accounting for Federal funds.  HSBD provides
educational and daycare services to children in Rhode Islands Greater
Providence and Blackstone Valley areas.  The Administration for Children
and Families (ACF), which administers the Head Start
program, requested that we audit HSBD.
We found that HSBD jeopardized the safety of children in its care by not fully
complying with requirements for fire inspections and preemployment background
checks.  In addition, HSBDs financial management systems did not meet Federal
requirements for disclosing the results of each federally sponsored program and
effectively accounting for Federal funds and assets.
Based on our preliminary audit findings, ACF suspended HSBDs funding in October
2007, and the Departmental Appeals Board upheld the suspension in January 2008.
Because ACF has suspended HSBDs funding indefinitely, we are not making any
recommendations to HSBD.  Instead, we are providing this report to ACF for use
in overseeing the Head Start grant that serves children in the Greater
Providence and Blackstone Valley areas.